            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
  COMMONWEALTH OF PENNSYLVANIA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2004

      March 2006   A-77-06-00008




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                   SOCIAL SECURITY
MEMORANDUM


Date:   March 7, 2006                                                    Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Inspector General

Subject: Management Advisory Report: Single Audit of the Commonwealth of Pennsylvania for
        the Fiscal Year Ended June 30, 2004 (A-77-06-00008)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the Commonwealth of Pennsylvania for the Fiscal Year ended June 30, 2004.
        Our objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        Ernst and Young, LLP and the Pennsylvania Auditor General jointly performed the audit.
        The Department of Health and Human Services (HHS) desk review concluded that the
        audit met Federal requirements. In reporting the results of the single audit, we relied
        entirely on the internal control and compliance work performed by Ernst and Young and
        the Pennsylvania Auditor General, and the reviews performed by HHS. We conducted
        our review in accordance with the Quality Standards for Inspections issued by the
        President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget (OMB) assigns
        Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
        Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
        identified by CFDA number 96. SSA is responsible for resolving single audit findings
        reported under this CFDA number.

        The Pennsylvania Bureau of Disability Determination (BDD) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The BDD is reimbursed for 100 percent of allowable costs. The
        Department of Labor and Industry is the Pennsylvania BDD’s parent agency.
Page 2 – Candace Skurnik

The single audit reported that BDD did not maintain documentation required by the
OMB Circular A-87 1 for personnel costs. Specifically, signed semiannual updates to job
descriptions and other certification documents were not obtained to support that BDD
employees worked solely on SSA’s programs during the audit period. The BDD stated
that current procedures, including the quarterly SSA-4514 Time Report of Personnel
Services, satisfy all documentation requirements under OMB Circular A-87. Therefore,
no corrective action was planned (Attachment A, pages 1 and 2).

We recommend SSA determine whether BDD’s current procedures for documenting
employee work activities are sufficient to ensure the accuracy of personnel costs
charged to its programs.

The single audit also disclosed the following findings that may impact Disability
Determination Services’ operations although they were not specifically identified to SSA.
I am bringing these matters to your attention as they represent potentially serious
service delivery and financial control problems for the Agency.

•     Adequate documentation was not maintained to support that new service providers
      were checked for debarment or suspension status on the List of Parties Excluded
      from Federal Procurement and Nonprocurement Programs (Attachment B,
      pages 1 and 2).

•     The Commonwealth did not comply with the Cash Management Improvement Act
      regulations and procedures for clearance pattern requirements and interest
      calculations (Attachment B, pages 3 through 10).

Please send copies of the final Audit Clearance Document to Shannon Agee and
Rona Lawson. If you have questions contact Shannon Agee at (816) 936-5590.




                                                          S
                                                          Patrick P. O’Carroll, Jr.

Attachments




1
    OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments.
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
Attachment B
 Page 1 of 10
Attachment B
 Page 2 of 10
Attachment B
 Page 3 of 10
Attachment B
 Page 4 of 10
Attachment B
 Page 5 of 10
Attachment B
 Page 6 of 10
Attachment B
 Page 7 of 10
Attachment B
 Page 8 of 10
Attachment B
 Page 9 of 10
Attachment B
Page 10 of 10
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
